          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Inspection Report
Review of Controls Over the
Department's Classification of
National Security Information




DOE/IG-0904                        March 2014
                                            Department of Energy
                                               Washington, DC 20585

                                                      March 27, 2014

MEMORANDUM FOR THE SECRETARY


FROM:                             Gregory H. Friedman
                                  Inspector General

SUBJECT:                          INFORMATION: Inspection Report on "Review of Controls Over the
                                  Department's Classification of National Security Information"

BACKGROUND

The Department of Energy handles and manages a broad spectrum of classified information,
including National Security Information (NSI). NSI relates to national defense and foreign
relations information and is classified in accordance with Executive Order 13526 and 32 Code of
Federal Regulations Part 2001, each entitled Classified National Security Information. Federal
requirements for NSI stress the need for the flow of information without compromising its
protection, and prescribe a uniform system for classifying, safeguarding and declassifying NSI.

The Office of Health, Safety and Security's Office of Classification, manages the Department-
wide classification program and establishes policies to conform with Federal classification
requirements. Implementation of classification requirements is shared among various
organizations within the Department. In addition, the Department's Office of Intelligence and
Counterintelligence (Headquarters Intelligence) is required to follow NSI policies and
procedures instituted by the Office of the Director of National Intelligence. Similarly, the
Department's National Nuclear Security Administration (NNSA) separately develops and
implements policies and procedures, in coordination with the Office of Classification, for the
protection and security of classified information at NNSA sites.

Due to the importance of adequately protecting and sharing classified NSI and in conjunction
with a Government-wide review of such material conducted by a number of other offices of
Inspector General, we initiated this inspection to assess the status of the Department's classified
NSI program. The vast majority of the Department's classified information is Restricted Data and
Formerly Restricted Data, which concerns nuclear weapons-related data. 1 Classification of this
information was not assessed during this review.

RESULTS OF INSPECTION

Our inspection revealed that the Department had established and implemented critical elements
of its classified NSI program. However, our review revealed that certain aspects of the NSI
program could be improved. Our inspection determined that:
1
  Classified Restricted Data and Formerly Restricted Data are protected in accordance with the Atomic Energy Act of 1954, as
amended, which provides different classification requirements from NSI, including exclusion from portion marking and
automatic declassification. Further, dissemination of Restricted Data and Formerly Restricted Data is limited to individuals with
special access.
                                                  2



   •   Of the 231 documents and emails we reviewed, 65 percent had classification marking
       errors that could adversely impact efforts to protect classified NSI against loss or
       unauthorized disclosure and impede information sharing. These errors included: (1) over
       or under classification; (2) improper annotations regarding duration and source of
       protection; and, (3) missing information on the origin and level of protection.

   •   A classification marking tool embedded in the classified email system at an NNSA site
       automatically marked emails as Secret//Restricted Data, regardless of content. We
       observed and senior program officials confirmed that this automatic feature could
       potentially result in over classifying and improperly marking classified NSI; however, we
       did not identify any instances in which this actually occurred.

   •   Headquarters Intelligence officials had not fully implemented required biennial self-
       assessments and annual classification decision reviews at Headquarters and field
       intelligence elements to identify and correct classification errors.

   •   Some of the derivative classifiers we interviewed who were responsible for ensuring the
       protection of classified information were not familiar with the requirements for making a
       formal challenge to external entities when they believed that information could be
       misclassified. However, they were aware of their responsibility to reach out internally to
       their respective classification officers.

The issues identified in this report are based on a judgmentally selected sample. Yet, when
considered in conjunction with deficiencies identified by separate compliance reviews completed
by the Office of Classification, they may reflect lessons learns which apply to the broader NSI
classification processes at Department and NNSA elements. A summary of the requirements and
the results of our review are detailed in Appendix 1, Inspectors General Community-Wide Focus
Areas and Appendix 2, Document Review Results.

The classification related issues we observed occurred, in part, because of ineffective oversight
of classification activities and inadequate training and guidance. We were told by a
classification program official that oversight activities such as self-assessments and document
decision reviews had not been completed at Headquarters Intelligence and field intelligence
elements because Headquarters Intelligence had not allocated resources to do so. Also,
Headquarters Intelligence officials had not granted proper security clearances to allow local
classification officers to assess and review the classified NSI program at field intelligence
elements. Further, interviews revealed, and we confirmed, that performance standards regarding
classification duties had not been established for the majority of the Federal derivative classifiers
we interviewed, although required by Executive Order 13526.

With regard to the sufficiency of training and guidance on classification, we found that
derivative classifiers' initial and refresher training materials focused on marking documents, but
not emails. We also found that this training had not provided sufficient emphasis on marking
working papers that contained classified NSI. Further, we noted that although the Department
offers training covering the topic of marking classified working papers at Headquarters,
derivative classifiers were not required to complete the training.
                                               3




In addition, the Department and NNSA guidance pertaining to marking classified emails was not
consistent with Federal requirements. In particular, the Federal guidance required marking
emails in the electronic environment while Department and NNSA guidance only required that
emails be marked when printed. Also, interviewed derivative classifiers were not familiar with
all requirements for making a formal challenge regarding information that could be misclassified
because the Department had not developed comprehensive training and guidance on that subject.

Striking a balance between protecting NSI and appropriate information sharing is difficult even
in optimal circumstances. But, it became clear that effective oversight, training and well-
developed guidance for those involved with the classification of NSI are imperative if the
Department is to be successful in this effort. We made a number of recommendations to assist
the Department with improving program management and execution of its classified NSI
program.

MANAGEMENT REACTION

While management concurred with the recommendations in the report, concerns were raised on
the impact our recommendations would have on established processes for classifying and
protecting Restricted Data and Formerly Restricted Data, and on the costs associated with
implementing corrective actions resulting from the recommendations. As more fully discussed
in the body of the report, alternative marking procedures that are compliant with Federal NSI
requirements are available and could address management's concerns. Overall, we found
management's comments and planned corrective actions to be generally responsive to our report
findings and recommendations. Management's formal comments are included in Appendix 6.

Attachment

cc:   Deputy Secretary
      Chief of Staff
      Acting Administrator, National Nuclear Security Administration
      Chief, Health, Safety and Security Officer
      Director, Office of Intelligence and Counterintelligence
      Chief Information Officer
REPORT ON REVIEW OF CONTROLS OVER THE DEPARTMENT'S
CLASSIFICATION OF NATIONAL SECURITY INFORMATION


TABLE OF
CONTENTS

Classification of National Security Information

Details of Finding                                   1

Recommendations and Comments                         8


Appendices

1. Inspectors General Community-wide Focus Areas     10

2. Document Review Results                           12

3. Sample of a Classified Document                   13

4. Objective, Scope and Methodology                  14

5. Related Reports                                   16

6. Management Comments                               17
REVIEW OF CONTROLS OVER THE DEPARTMENT'S
CLASSIFICATION OF NATIONAL SECURITY INFORMATION

PROTECTING NATIONAL SECURITY INFORMATION

Our inspection revealed that the Department of Energy's (Department) Office of Health, Safety
and Security, Office of Classification had taken steps to establish policies and procedures to
protect National Security Information (NSI) within the Department. While we observed that
some improvements to training were necessary, we determined that, in general, individuals
authorized to originally or derivatively classify information had received fundamental training
and possessed the basic knowledge necessary to execute their classification duties. 3 The training
covers familiarization with the system of classification, derivative review process and use of
classification guides, and marking mechanisms. However, opportunities for improvement exist
for certain aspects of the Department's classified NSI program for the three Department elements
we reviewed.

                                             Classification Marking Errors

Requirements in 32 Code of Federal Regulations (CFR) Part 2001, Classified National Security
Information, indicate that classification markings, such as elements of a classification block as
well as portion and banner markings, are essential to leave no doubt about the classified status of
information, level of protection required and duration of classification. 4 Appendix 3, Sample of
a Classified Document, provides an illustration for marking classified information. Further,
Department Order 471.6 and National Nuclear Security Administration (NNSA) Policy Letter
70.4, both entitled Information Security, specifies Departmental marking requirements for
classified working papers and emails to ensure that information is adequately classified and
protected. 5

In spite of the specific information contained in these authorities, we found that a number of
items we examined were not properly marked by derivative classifiers. Of the 231 documents
and emails we reviewed, 65 percent had classification marking errors that could adversely impact
efforts to protect and share classified NSI, as presented in Appendix 2, Document Review
Results. 6 Notably, we found classification marking errors including: (1) over or under
classification; (2) improper annotations regarding duration and source of protection; and
(3) missing information on the origin and level of protection.

Over or Under Classification

We determined that four emails and one document were over or under classified. For example,
one email was marked classified even though the email did not contain classified information
and three transmittal emails were marked unclassified but contained classified attachments. We

3
  Individuals with original classification authority classify information in the first instance (originally). Individuals
  with derivative classification authority incorporate, paraphrase, restate, or generate, in new form, information that
  is already classified and also apply markings in accordance with classification guidance and source documents.
4
  Classification block consists of the "Classified by," "Derived from," and "Declassify on" lines.
5
  Working papers are documents or materials that are expected to be revised prior to the preparation of a finished product for
dissemination or retention.
6
  A single document or email may include multiple marking errors.
______________________________________________________________________________
Page 1                                                        Details of Finding
______________________________________________________________________________


found that the Department and NNSA guidance did not provide information on marking emails
with classified attachments. A senior program official also stated that the practice of marking
unclassified transmittal emails with classified attachments was adequate provided that
appropriate warnings were noted in the emails. However, we noted that this practice was
contrary to 32 CFR Part 2001, which indicates that the overall classification of an email should
account for the classification level of any attached files, including the transmittal message.

In addition to emails, we noted one document was improperly marked Secret NSI even though it
contained classified Formerly Restricted Data, information that requires special access. Such
marking resulted in the document being subject to a premature release due to NSI automatic
declassification provisions, which is contrary to the Atomic Energy Act of 1954, as amended
(Atomic Energy Act). 7 Unlike NSI, documents classified as Restricted Data or Formerly
Restricted Data do not have declassification instructions. We noted that the document was part
of a classified file that was updated on a frequent basis. Such updates could potentially change
the classification status of the documents contained in the file. Even though this classified
document appeared to have characteristics of a "Draft" or "Working Paper," it was not annotated
to convey the working draft status of the file, contrary to Department Order 471.6 and NNSA
Policy Letter 70.4.

Improper Annotation Regarding Duration and Source of Protection

We identified 37 documents that contained improper instructions on when to declassify
information. Although required, 17 of the 37 documents we reviewed did not include the
appropriate and more restrictive declassification instructions. The documents specified
automatic declassification dates within 25 years instead of correctly indicating that the
information was exempt from automatic declassification. According to a senior program official,
the absence of declassification exemption markings may present a risk of prematurely disclosing
classified information, even if documents include a control marking indicating that information
requires a review by an authorized individual prior to declassification. Other program officials
opined that there is little risk of improper disclosure because a review is specifically required
prior to declassification. We could not reconcile these disparate views, but noted that
compliance with marking requirements generally improves accountability and helps protect
against improper disclosure.

Additionally, we identified two documents from field intelligence elements in which marking
guidance was incorrectly applied. One of these documents was marked with a specific
declassification date within 25 years and another marked with 25X1. Both documents, however,
appeared to contain information meeting the criteria of 50X1-HUM declassification exemption. 8


7
  Classified NSI is subject to automatic declassification, which permits information to be declassified without review, if the
document is more than 25 years old and has been determined to have permanent historical value under Title 44, United States
Code. However, classified NSI requiring continued protection beyond 25 years can be exempted from automatic declassification,
when the information has been determined to satisfy one or more of the exemption categories as indicated on the classification
guides used.
8
  Both 25x1 and 50x1 are automatic declassification exemptions indicating that the document shall be protected beyond 25 and
50 years, respectively. 50X1 is applied to information that could reveal the identity of a confidential human source, whereas
25X1 pertains to human and non-human sources and methods.
______________________________________________________________________________
Page 2                                                        Details of Finding
______________________________________________________________________________


The respective derivative classifiers interviewed indicated that they were unaware of a policy
change issued by Information Security Oversight Office, Notice 2012-02: Classification
Marking Instructions on the Use of “50X1-HUM” vs “25X1-human” as a Declassification
Instruction, in December 2011. This policy specified that the declassification instruction of
50X1-HUM should be applied if information could reveal specific sources. Further, based on a
separate document review performed by a senior program official and an Office of Intelligence
and Counterintelligence (Headquarters Intelligence) derivative classifier, the information
contained in the two documents came from multiple sources, even though the documents did not
include a source list. This treatment is contrary to 32 CFR Part 2001, which indicates that a
listing of source materials should be indicated or attached to a derivatively classified document if
multiple sources were used to classify the information. Accordingly, proper declassification
instructions could not be determined because the source list information was not available.

We further identified improper instructions in 32 emails regarding the duration of protection.
Half of these emails originated from Headquarters Intelligence and field intelligence elements.
Headquarters Intelligence derivative classifiers stated that a classification marking tool
embedded in the email system allowed users to set-up default declassification instructions.
However, we found that instructions were not always modified to ensure consistency with the
classification guide being used. Further, we determined that the Headquarters Intelligence
classification marking tool had not been deployed in the classified email systems at two field
intelligence elements. Thus, field intelligence elements derivative classifiers applied
classification markings manually and also, in the majority of the cases we reviewed, markings
that were inconsistent with requirements.

Missing Information on the Origin and Level of Protection

We determined that classification blocks and portion markings, which describe the origin,
duration and level of protection, were not always properly annotated on the documents reviewed.
We identified 20 documents that were marked as classified by derivative classifiers in which the
blocks were missing information. According to a local classification officer, derivative
classifiers were not required to mark the documents until the documents were considered final.
Further, the local classification officer told us that draft documents or working papers were not
required to be marked by derivative classifiers until after 180 days of creation or prior to being
released outside the organization. However, we noted that these documents, which were hard
copies, were not marked as "Draft" or "Working Papers" to clearly convey the status of classified
information as required by Department Order 471.6 and NNSA Policy Letter 70.4. Furthermore,
contrary to 32 CFR Part 2001, we identified 57 documents and emails that lacked portion
markings on the subject line and main body of documents and emails; 42 of the 57 documents
and emails were attributable to emails that originated from Headquarters Intelligence and field
intelligence elements. Without adequate information on the origin and level of protection,
traceability to the origin of classification decisions and protection of classified information could
negatively impact efforts to safeguard and share classified NSI.




______________________________________________________________________________
Page 3                                                        Details of Finding
______________________________________________________________________________


                                     Classified Email System

We observed that a classification marking tool embedded in the classified email system at one
NNSA site automatically marked emails as Secret//Restricted Data , the highest level of
protection authorized for that system, regardless of content. In contrast, the classified email
system at another NNSA site did not include a marking tool, and required users to manually
mark emails. We did not assess the appropriateness of email markings from the two NNSA sites'
classified email systems; however, we observed and senior officials confirmed that the
classification marking tool's automatic feature at one NNSA site could result in improperly
marking emails and potentially over classifying NSI. The requirements in 32 CFR Part 2001
indicate that emails containing classified NSI should be marked with proper classification
markings while in the electronic environment, or if not practicable, a warning should be
annotated to provide further guidance on the limited use of classified information contained in
the email. Contrary to 32 CFR Part 2001, we noted that Department guidance, Department
Order 471.6 and NNSA Policy Letter 70.4, did not specify that classified NSI emails required
proper markings while in electronic format, but did when printed.

Senior officials told us that the Department faces a unique challenge of effectively protecting and
implementing classification requirements for Restricted Data, Formerly Restricted Data and NSI
in the electronic environment. The challenge is attributable to the differing requirements for
protecting Restricted Data and NSI. NSI requires provisions, such as portion markings and
automatic declassification, whereas RD is excluded from these provisions because it is classified
under the Atomic Energy Act. As the Department deals with Restricted Data the majority of the
time, certain classified email systems at the Department and NNSA sites were designed to
protect such information. Despite the challenges, a senior program official indicated that emails
should be marked appropriately while in the original electronic format, as information could be
shared outside the organization. The senior program official also acknowledged that the process
for marking emails could be improved.

                                     Self-Inspection Program

We determined that the Department's Office of Classification had completed on-site evaluations,
an element of its self-inspection program. However, responsible Headquarters Intelligence
officials had not conducted the required classification biennial self-assessments and annual
classification decision reviews. We noted that there are three elements of the self-inspection
program – on-site evaluations, self-assessments and classification decision reviews. These
elements are required to appropriately assess the effectiveness of the NSI program, including
distribution of classification authorities, actions taken to correct previous assessment findings,
and to identify and correct misclassification actions, as specified in Department Order 475.2A,
Identifying Classified Information.

On-Site Evaluations

We determined that the Office of Classification had conducted the required on-site evaluations to
independently assess the NSI program within individual Department and NNSA sites. In fact,

______________________________________________________________________________
Page 4                                                        Details of Finding
______________________________________________________________________________


the on-site evaluation report for one NNSA site reviewed noted deficiencies concerning the site's
insufficient sample of documents reviewed during the annual classification decision reviews. In
particular, the Office of Classification found that the site only reviewed unclassified documents
to ensure that such documents did not contain classified information, but did not include a
sample of classified documents as required by Department Order 475.2A. Since that review, we
noted that the site had taken corrective actions to incorporate a sample of classified documents
during its annual reviews.

Self-Assessments

We noted that Headquarters Intelligence had used Assistance Visits conducted by the Office of
Classification in July 2008 and November 2010, in lieu of completing the required biennial self-
assessments. According to a senior program official, an Assistance Visit can be used as a form
of self-assessment to assist Headquarters Intelligence in developing corrective actions to address
concerns found during the review. However, we determined from the Assistance Visit to the
Department of Energy, Office of Intelligence and Counterintelligence report, dated November
2010, and interviews with Headquarters officials that Headquarters Intelligence had not: (1)
implemented corrective actions addressing the need to conduct biennial self-assessments noted
during the previous July 2008 Assistance Visit; or (2) established oversight responsibilities, such
as the performance of self-assessments and classification decision reviews at field intelligence
elements. The assessment also identified classification marking errors in 27 percent of the
classified documents reviewed. Such errors included improper annotation on the duration of
protection, missing advisement on origin, and inadequate information on the sources used to
make classification determinations.

When asked about the failure to perform self-assessments, a senior Headquarters Intelligence
official told us that integrating quality control into its classification program through the use of
technical subject matter experts and reviews of finished intelligence products containing
authoritative analysis disseminated to Intelligence Community elements are forms of self-
assessment. Although the quality assurance review of finished intelligence products appears to
be a sound practice, we believe that Headquarters Intelligence officials are missing an
opportunity to identify and correct deficiencies and strengthen processes necessary to protect
NSI through the performance of the required assessments.

Classification Decision Reviews

Headquarters Intelligence had not conducted comprehensive classification decision reviews that
encompassed a representative sample of classified NSI at Department Headquarters, as required
by Department Order 475.2A. Specifically, we determined that Headquarters Intelligence
classification officials only reviewed approximately 140 finished intelligence products during
Fiscal Year (FY) 2012. We found that Headquarters Intelligence classification officials did not
review emails and internal documents, despite the fact that 90 percent of the 5,737 derivative
classifier decisions reported to the Information Security Oversight Office were attributable to
emails.


______________________________________________________________________________
Page 5                                                        Details of Finding
______________________________________________________________________________


In addition, we determined that annual classification decision reviews excluded field intelligence
element activities. According to a Headquarters Intelligence program official, a classification
decision review was conducted at one of two field intelligence sites that we reviewed, in
conjunction with an Office of Classification on-site evaluation in March 2012. We also noted
that this review was last performed in March 2012 even though it is required on an annual basis.
Further, we found that as of March 2014, Headquarters Intelligence had not conducted a
classification decision review at the other site that we reviewed, but had tentatively scheduled the
review for FY 2015. The lack of annual classification decision reviews may have contributed to
the classification marking errors identified during our review.

                                                Classification Challenges

While we did not find instances in which formal challenges were handled inappropriately, we
determined that 12 of 37 interviewed derivative classifiers responsible for ensuring the integrity
and protection of classified information were not familiar with the requirements for making a
formal challenge to external entities when they believe that information could be misclassified. 9
However, they were aware of their responsibility to reach out internally to their respective
classification officers. In addition to derivative classifiers, individuals with security clearances
may not be aware of the requirements for making a formal challenge. Executive Order 13526,
Classified National Security Information, specifies that the Department must establish
procedures to allow and encourage authorized holders of information to challenge the
classification of information that is believed to be misclassified. These procedures ensure that,
among other things, individuals are advised of their appeal rights outside the agency. Also, 32
CFR Part 2001 specifies that formal challenges must be made in writing and established response
timeframes shall be met. Classification officials told us that even though the Department lacks
procedures on formal challenges, informal challenges are generally encouraged in the
Department to facilitate timely resolution.

During interviews, senior program officials stated that classification challenges occur
infrequently at the Department. However, the senior official acknowledged that there is a need
to clarify the process for making classification challenges and provide information on appeal
rights to create an environment where people have the knowledge to raise concerns about
information that could be misclassified.

CONTRIBUTING FACTORS AND POTENTIAL IMPACT

The classification related issues we observed occurred, in part, because of ineffective oversight
of classification activities and inadequate training and guidance. We were told by a
classification program official that oversight activities such as self-assessments and document
decision reviews had not been completed at Headquarters Intelligence and field intelligence
elements because Headquarters Intelligence officials had not allocated resources to do so.




9
 Formal challenges are those that are submitted in writing to the Office of Classification or Associate Administrator for Defense
Nuclear Security, if submitted by NNSA personnel. Informal challenges, which are generally encouraged in the Department, rise
up to the level of formal challenges when differences in views are not resolved at the program/field classification officer level.
______________________________________________________________________________
Page 6                                                        Details of Finding
______________________________________________________________________________


Further, Headquarters Intelligence had not granted proper security clearances to local
classification officers to allow accessibility to field intelligence element information enabling the
performance of self-assessments and classification decision reviews. Further, interviews
revealed and we confirmed that performance standards regarding classification duties had not
been established for the majority of interviewed Federal derivative classifiers, although required
by Executive Order 13526. Such performance standards could help ensure that operational and
security requirements pertaining to classified NSI are satisfied.

Sufficiency of training and guidance on classification may have also contributed to the marking
errors and other issues. We found that derivative classifiers' initial and refresher training
materials at Headquarters and at the two sites reviewed focused on marking documents but not
emails. We also found that the same derivative classifiers' training did not provide sufficient
emphasis on marking working papers that contained classified NSI. Further, we noted that
although the Department offers training covering the topic of marking classified working papers
at Headquarters, derivative classifiers were not required to complete the training. We also found
that while initial security briefings provided to individuals who are granted security clearances
covered marking classified working papers, annual refresher security briefings did not.

In addition, Department and NNSA guidance pertaining to marking classified emails were not
consistent with Federal requirements. In particular, the Federal guidance provides for marking
emails in the electronic environment while the Department guidance only specifies the
requirement for marking emails when printed. Additionally, derivative classifiers we
interviewed were not familiar with all requirements for making a formal challenge regarding
information that could be misclassified because the Department had not developed
comprehensive training and guidance on that subject. For example, our review of training
materials for derivative classifiers at one site specified the need to contact the local classification
officer about challenges, but did not describe the process for making formal challenges outside
the local classification office. In addition, we noted that reference materials available to other
individuals with security clearances, such as annual security briefings and policies at
Headquarters and the two NNSA sites, were not comprehensive. For instance, the procedures for
making formal classification challenges, including appeal rights and established timeframes were
not specified in the Department Order 475.2A and local policies at the two NNSA sites. Further,
security briefings did not provide procedures or information regarding appeal rights outside of
the Office of Classification or the local classification office.

Protecting NSI while sharing information as widely as possible presents a difficult challenge.
Strikingly, the balance between these very important national priorities is difficult without
effective oversight, training and well-developed guidance for those involved with classification
of NSI. While the issues identified in this report are based on a judgmentally selected sample,
they may, when considered in conjunction with deficiencies identified by the Office of
Classification during its evaluations, be indicative of issues impacting NSI classification
processes at Department and NNSA elements we did not specifically test. We have made a
number of recommendations intended to assist the Department with improving program
management and execution of its classified NSI program.



______________________________________________________________________________
Page 7                                                        Details of Finding
______________________________________________________________________________


RECOMMENDATIONS

To address the challenges we identified in this report, we recommend that the Chief Health,
Safety and Security Officer:

   1. Update Department Order 475.2A to incorporate guidance on the process for formal
      classification challenges.

We also recommend that the Chief Health Safety and Security Officer, in coordination with the
National Nuclear Security Administration, Office of the Chief Information Officer, Office of
Intelligence and Counterintelligence, and Field Elements:

   2. Ensure that the Department guidance is updated to make certain that emails containing
      classified NSI are properly marked while in the original electronic format;

   3. Provide appropriate training and guidance on classification marking for working papers
      to assist derivative classifiers and others with security clearances in more effectively
      marking classified information;

   4. Ensure that individuals with security clearances, including derivative classifiers, are
      trained and made aware of their responsibilities to make formal challenges;

   5. Ensure that emails containing classified NSI are appropriately marked while in the
      original electronic format; and

   6. Implement a process to hold derivative classifiers accountable for implementing NSI
      classification requirements, including marking of classified NSI documents and emails.

Further, we recommend that the Director, Office of Intelligence and Counterintelligence:

   7. Ensure that self-assessments and document decision reviews are conducted at
      Headquarters Intelligence and field intelligence elements, as required.




______________________________________________________________________________
Page 8                                                      Recommendations
______________________________________________________________________________


MANAGEMENT AND INSPECTOR COMMENTS

Management concurred with the recommendations in the report, but raised concerns regarding
the impact our recommendation would have on established processes for classifying and
protecting Restricted Data and Formerly Restricted Data, and on the costs associated with
implementing corrective actions resulting from the recommendations. Specifically, management
expressed concerns with classified emails containing NSI in which the Federal requirement to
fully mark the classification of each email is problematic because not all email users are
derivative classifiers authorized to make final classification determinations. Management cited
possible solutions of permitting all email users to be NSI derivative classifiers to ensure
classified NSI emails are properly marked while in the original electronic format.

While we concur that corrective actions resulting from our recommendations should take into
consideration impacts to existing processes, including those related to protecting Restricted Data
and Formerly Restricted Data, appropriate guidance specific to classified NSI, including emails,
should be provided to ensure consistent application of Federal NSI classification requirements.
Also, in recognition of the implementation costs of properly marking classified NSI emails,
Federal requirements permit classified NSI emails to exclude proper classification markings
while in the electronic environment, provided that a warning on the limited use of the
information is annotated on the email. Such option could potentially alleviate issues related to
the possible management solution of permitting all email users to be derivative classifiers.

Overall, we found management's comments and planned corrective actions to be responsive to
our report findings and recommendations. Management's formal comments were included in
Appendix 6.




______________________________________________________________________________
Page 9                                     Management and Inspector Comments
Appendix 1

            INSPECTORS GENERAL COMMUNITY-WIDE FOCUS AREAS

       Inspection
       Focus Area                                    Disposition
1.   General Program   Program Management and Execution. We found that the Department
     Management        of Energy (Department), in general, had established and implemented
                       certain elements of the Federal classification requirements, including
                       an annual process for validating special access programs to limit its
                       number, as required by Executive Order 13526, Classified National
                       Security Information. However, we found derivative classifiers were
                       not familiar with the requirements for making a formal challenge for
                       information that could be misclassified.

2.   Original          Program Execution. We found 14 individuals with Original
     Classification    Classification Authority (OCA), 5 with Top Secret OCA and 9 with
     Authority         Secret OCA, were appropriately delegated and reported to Information
                       Security Oversight Office (ISOO).

3.   Original          Program Execution. We determined that the last original classification
     Classification    determination, made in Fiscal Year (FY) 2008, was completed in
     and Marking       accordance with Federal classification requirements.

4.   Derivative        Program Execution. We determined that derivative classifiers
     Classification    appeared to have basic knowledge on classification. However, we
     and Marking       noted that the derivative classifiers did not always appropriately apply
                       classification marking requirements. Specifically, 65 percent of
                       documents and emails reviewed contained classification marking
                       errors.

5.   Self-Inspection   Program Management and Execution. As part of the Department's self-
                       inspection program, we found that the Department's Office of Health,
                       Safety and Security, Office of Classification had conducted an on-site
                       evaluation at one of the reviewed National Nuclear Security
                       Administration sites, to independently assess the effectiveness of the
                       classification program. We noted that deficiencies were identified
                       during the evaluation and that the site had taken corrective actions to
                       address those deficiencies. However, we found that elements of the
                       self-inspection program had not been fully implemented by responsible
                       Office of Intelligence and Counterintelligence (Headquarters
                       Intelligence) officials at Headquarters Intelligence and field
                       intelligence elements.




______________________________________________________________________________
Page 10                          Inspectors General Community-wide Focus Areas
Appendix 1 (continued)


     Inspection
     Focus Area                                     Disposition
6.   Reporting to    Program Execution. We found that the required reporting to ISOO
     ISOO            such as delegations of OCA, statistical reports, accounting for costs,
                     and self-inspections were submitted to ISOO. Further, we noted that
                     the Department had no reportable incidents of security violations and
                     improper declassification of information, as described in the self-
                     inspection reports submitted to ISOO for FY 2012 and 2011. Also, we
                     noted that the estimated total of derivative classifier decisions reported
                     to ISOO was projected. We noted that ISOO permits the submission of
                     these estimates.

7.   Security        Program Management and Execution. We noted that the Department's
     Education and   policy incorporated the essential elements for establishing a formal
     Training        security education and training program for individuals with security
                     clearance, including derivative classifier training on familiarization to
                     system of classification, derivative review process and use of
                     classification guides, and marking mechanisms. The policy also
                     provided for suspending OCA and derivative classifiers who fail to
                     meet training requirements. Based on our review of training records,
                     we determined that original classifiers and derivative classifiers had
                     met the required training.

8.   Intelligence    Program Management and Execution. We found that the Intelligence
     Component       Community-wide guidance and directives related to classification, such
                     as Controlled Access Program Coordination Office Register and
                     Manual, were incorporated in Headquarters Intelligence's derivative
                     classifier training materials. We also noted that 20 of 21 derivative
                     classifiers from Headquarters Intelligence and field intelligence
                     elements had access to updated Intelligence-related policies and
                     procedures. Based on interviews with derivative classifiers, we did not
                     find common issues or concerns related to the Office of the Director of
                     National Intelligence policies on controlled access information.




______________________________________________________________________________
Page 11                          Inspectors General Community-wide Focus Areas
Appendix 2
                             DOCUMENT REVIEW RESULTS


                         Table 1: Classification Error by Category



                                    Identified Classification Errors
                                    Improper       Lack of      No
Department   Sample               Declassification Portion Classification Total Errors
 Element      Size  Misclassified  Instructions    Markings   Block       Errors  %
    A         118        1              40           47          0         88    75%
                       [Errors found in 29 documents and 59 emails]
     B          47          3               10              8           5          26      55%
                       [Errors found in 7 documents and 19 emails]
     C          66          1               19              2           15         37      56%
                       [Errors found in 29 documents and 8 emails]
Totals:        231          5               69             57           20         151    65%

Source: Analysis of the Office of Inspector General document review as conducted on a sample
basis. A single document or email may include multiple marking errors.




 ______________________________________________________________________________
Page 12                                                Document Review Results
Appendix 3

                       SAMPLE OF A CLASSIFIED DOCUMENT

         All contents below are unclassified. Markings are example purposes only.


                                                                            Banner Marking




          Portion Marking




                                                                Classification Block




                                                                            Banner Marking

Source: Office of Health, Safety and Security, Office of Classification, DC Module E: Marking
Mechanics for Derivative Classification, March 2012.

Legend: U – Unclassified; S – Secret; C – Confidential; NSI – National Security Information;
RD – Restricted Data; FRD – Formerly Restricted Data; FGI – Foreign Government Information



______________________________________________________________________________
Page 13                                        Sample of a Classified Document
Appendix 4

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to assess whether applicable classification policies,
procedures, rules, and regulations have been adopted, followed, and effectively administered
within the Department of Energy (Department); and identify policies, procedures, rules,
regulations, or management practices that may be contributing to persistent misclassification of
material within the Department.

SCOPE

Consistent with the Council of the Inspectors General on Integrity and Efficiency, Standard
User's Guide for Inspectors General Conducting Evaluations under Public Law 111-258, the
"Reducing Over-Classification Act," our inspection focused on National Security Information
pertaining to eight areas: (1) original classification authority; (2) general program management;
(3) original classification and marking; (4) derivative classification and marking; (5) self-
inspections; (6) reporting; (7) security education and training; and (8) intelligence component
cross-cutting issues.

This performance-based inspection was performed from March 2013 through March 2014, at
Department Headquarters in Washington, DC, the Nevada Field Office in Las Vegas, Nevada,
and Sandia National Laboratories in Albuquerque, New Mexico. The inspection was conducted
under Office of Inspector General Project Number S12IS013.

METHODOLOGY

To accomplish the inspection objective, we:

   •   Reviewed and analyzed Federal and Department regulations on classification.

   •   Interviewed Federal and Contractor officials, including classification officers, original
       classifiers, and derivative classifiers.

   •   Selected a judgmental sample totaling 231 documents and emails that were derivatively
       classified by selected derivative classifiers during the period from Fiscal Year 2012
       through current, for each Department element. The sample was determined to reflect the
       relative size of the inspected element. Further, the sample consisted of documents and
       emails randomly selected during the course of the inspection.

   •   Obtained and reviewed original classification determinations made in the last 5 years.

We conducted this performance-based inspection in accordance with the Council of the
Inspectors General on Integrity and Efficiency's Quality Standards for Inspection and
Evaluation. Those standards require that we plan and perform the inspection to obtain sufficient,

______________________________________________________________________________
Page 14                                        Objective, Scope and Methodology
Appendix 4 (continued)
appropriate evidence to provide a reasonable basis for our conclusions and observations based on
our inspection objective. We believe the evidence obtained provided a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Finally, we relied on computer-processed data, to some extent, to satisfy our objective. We
confirmed the validity of such data, when appropriate, by conducting interviews and analyzing
source documents.

An exit conference was waived by the Office of Health, Safety and Security, National Nuclear
Security Administration, Office of Intelligence and Counterintelligence, and Office of the Chief
Information Officer.




______________________________________________________________________________
Page 15                                        Objective, Scope and Methodology
Appendix 5

                                   RELATED REPORTS

Office of Inspector General Report

   •   Inspection Report on Internal Controls over Accountable Classified Removable
       Electronic Media at Oak Ridge National Laboratory, (INS-O-09-02, May 2009). The
       Department of Energy Office of Inspector General found that (1) a number of
       Secret//Restricted Data media had not been identified as Accountable Classified
       Removable Electronic Media (ACREM) and placed into a system of accountability; (2)
       other ACREM protections and controls were not implemented; and (3) other media
       devices were stored in a security area without an analysis of vulnerabilities. Several
       recommendations were made to the Manager, Oak Ridge Office, regarding improving
       controls over ACREM. Corrective actions had been taken to address the
       recommendations.

U.S. Government Accountability Office

   •   Report on Managing Sensitive Information, Actions Needed to Ensure Recent Changes in
       DOE Oversight Do Not Weaken an Effective Classification System, (GAO-06-785, June
       2006). The Government Accountability Office found that an October 2005 shift in
       responsibility for classification oversight to the Office of Security Evaluations has
       created uncertainty about whether a high level of performance in oversight will be
       sustained. The Agency recommended that (1) the Department of Energy conduct a
       similar number of reviews, as it did before October 2005; (2) apply selection procedures
       that more randomly indentify classified documents for review; and (3) disclose the
       selection procedures in future classification inspection reports. Corrective actions had
       been taken to address the recommendations.




______________________________________________________________________________
Page 16                                                        Related Reports
Appendix 6

                         MANAGEMENT COMMENTS




______________________________________________________________________________
Page 17                                                 Management Comments
Appendix 6 (continued)




______________________________________________________________________________
Page 18                                                 Management Comments
Appendix 6 (continued)




______________________________________________________________________________
Page 19                                                 Management Comments
Appendix 6 (continued)




______________________________________________________________________________
Page 20                                                 Management Comments
Appendix 6 (continued)




______________________________________________________________________________
Page 21                                                 Management Comments
                                                                    IG Report No. DOE/IG-0904

                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message clearer to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name __________________________________ Date ________________________________

Telephone ______________________________ Organization __________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
